<html>
<title> - AN UPDATE ON THE ROHINGYA CRISIS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                    AN UPDATE ON THE ROHINGYA CRISIS

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON ASIA, THE PACIFIC AND NONPROLIFERATION

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             August 3, 2020

                               __________

                           Serial No. 116-125

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]	       


       Available:  http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.govinfo.gov                       
                       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
41-944 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------                       
                       
                       
                       
                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey		     CHRISTOPHER H. SMITH, New Jersey     
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida	     JOE WILSON, South Carolina
KAREN BASS, California		     SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts	     TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island	     ADAM KINZINGER, Illinois
AMI BERA, California		     LEE ZELDIN, New York
JOAQUIN CASTRO, Texas		     JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada		     ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California		     FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania	     BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLPS, Minnesota	             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota		     KEN BUCK, Colorado
COLIN ALLRED, Texas		     RON WRIGHT, Texas
ANDY LEVIN, Michigan		     GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia	     TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey	     STEVE WATKINS, Kansas
DAVID TRONE, Maryland		     MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas    

                    Jason Steinbaum, Staff Director
               Brendan Shields, Republican Staff Director
                                 ------                                

         Subcommittee on Asia, the Pacific and Nonproliferation

                    AMI BERA, California, Chairman,

DINA TITUS, Nevada                   TED YOHO, Florida, Ranking Member
CHRISSY HOULAHAN, Pennsylvania	     SCOTT PERRY, Pennsylvania
GERALD CONNOLLY, Virgina	     ANN WAGNER, Missouri
ANDY LEVIN, Michigan                 BRIAN MAST, Florida
ABIGAIL SPANBERGER, Virginia	     JOHN CURTIS, Utah                                   

                     Nikole Burroughs, Staff Director
                    
                         
                           C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Schwartz, The Honorable Eric, President, Refugees International..     7
Nu, Wai Wai, Executive Director, Women's Peace Network...........    17
Neville, Allyson, Associate Director for International 
  Humanitarian Response Policy and Advocacy, Save the Children...    23
Enos, Olivia, Senior Policy Analyst, The Heritage Foundation.....    30

                  INFORMATION SUBMITTED FOR THE RECORD

Information submitted for the record from The Honorable Eric 
  Schwartz.......................................................    51

                                APPENDIX

Hearing Notice...................................................    65
Hearing Minutes..................................................    67
Hearing Attendance...............................................    68

                   
                   STATEMENT SUBMITTED FOR THE RECORD

Statement submitted for the record from Representative Connolly..    69

 
                    AN UPDATE ON THE ROHINGYA CRISIS

                         Monday, August 3, 2020

                          House of Representatives,
            Subcommittee on Asia, the Pacific, and 
                                   Nonproliferation
                      Committee on Foreign Affairs,
                                                     Washington, DC

    The subcommittee met, pursuant to notice, at 2:03 p.m., via 
Webex, Hon. Ami Bera (chairman of the subcommittee) presiding.
    Mr. Bera. The Subcommittee on Asia, Pacific, and 
Nonproliferation will come to order. Without objection, the 
chair is authorized to declare a recess of the committee at any 
point. And all members will have 5 days to submit statements, 
extraneous materials, and questions for the record subject to 
the length limitation in the rules. To insert something into 
the record, please have your staff email the previously 
mentioned address or contact full committee staff. Please keep 
your video function on at all times, even when you are not 
recognized by the chair. Members are responsible for muting and 
unmuting themselves. And please remember to mute yourself after 
you finish speaking.
    Consistent with H.Res. 965 and the accompanying regulations 
staff will only mute members and witnesses as appropriate when 
they are not under recognition to eliminate background noise.
    Seeing that we are a quorum, I will now recognize myself 
for opening remarks. Pursuant to notice, we are holding a 
hearing to discuss an update on the Rohingya crisis.
    I want to thank the ranking member, Mr. Yoho, the members 
of this subcommittee, and our witnesses, members of the public 
for joining us today. While COVID-19 has had many harmful and 
negative consequences, one benefit is we are still able to 
continue to conduct our committee work, even if we have to it 
as a virtual hearing. This topic is as timely as ever.
    Later this month will mark 3 years since the Tatmadaw, the 
Burmese military, began what they called clearance operations 
against the Rohingya in the Rakhine State. In reality, what we 
witnessed was ethnic cleansing and what should be considered a 
genocide. According to the U.N. Independent International Fact-
Finding Mission on Myanmar, what took place was actually the 
killing of thousands of Rohingya civilians, as well as forced 
disappearances, mass gang rapes, and the burning of villages in 
the hundreds.
    We decided to hold this hearing because although our Nation 
and the world is grappling with a pandemic and massive economic 
recession, we have to continue to remain vigilant and watch 
what is happening around the world. What we have seen is these 
actions against the Rohingya are egregious and repulsive. But 
they are not without precedent. We would like to say that these 
are inhuman acts, but these types of actions have unfortunately 
shown them to be depressingly regular and familiar in the 20th 
and 21st century. They should not be in this modern world.
    It is the role of this subcommittee to provide oversight of 
this region, and we need to get back it our regular duties when 
we are not engaged in COVID responsiveness. What the hearing 
will look at, you know, it is that, clear 3 years later, Burma 
is still not respecting the basic human rights of the Rohingya. 
Three years later, the victims in Burma and Bangladesh and the 
international community are still dealing with the 
consequences. That is what this hearing will examine. What is 
the current status of those who have fled to Bangladesh and 
were placed in Cox's Bazar? How is COVID-19 shaping the 
situation on the ground? And how have Burma's neighbors 
welcomed or not welcomed the Rohingya refugees.
    This hearing will also examine the role of the United 
States and the international community. What additional steps 
should the U.S. Government and the international community take 
to help the Rohingya people and assist Bangladesh in caring for 
them? How should we ensure justice and accountability for the 
victims of this brutal campaign against the Rohingya 
perpetrated by the Burmese military? And, finally, this hearing 
will examine prospects for peace and the return of the Rohingya 
State--or of the Rohingya to the Rakhine State.
    With that, I look forward to the testimony of our 
witnesses. Have we been joined--I do see the ranking member, 
Mr. Yoho, on the call. And, with that, let me turn it over to 
the ranking member, Mr. Yoho, for his opening remarks.
    Mr. Yoho. One, two, three, four, five. Can you hear me?
    Mr. Bera. We can.
    Mr. Yoho. Thank you, Chairman Bera.
    And thank you for each of our witnesses for joining us 
today to discuss this important and timely issue facing the 
Rohingya. I look forward to this hearing--from hearing from 
each of you in how the United States can better save this 
population and hold the government of Myanmar accountable for 
its abuses. We are gathered here today due to the continued 
mistreatment of the Rohingya minority in Burma, a situation 
that has persisted since the early 1960's where the Rohingya 
have been stripped of their citizenship, basic human rights, 
and fundamental freedoms.
    Conditions for the Rohingya worsened to a horrific extent 
several years ago when the region erupted into full-scale, 
State-sponsored violence, killing tens of thousands and forcing 
over 700,000 to flee to neighboring countries like Bangladesh.
    During my time in Congress, my colleagues and I have 
repeatedly striven to hold the government of Myanmar 
accountable for its ethnic cleansing of the Rohingya. I was 
proud to be a cosponsor of the BURMA Act of 2019, which passed 
the House late last year and have led multiple efforts to usual 
the Treasury Department to hold Myanmar accountable through 
sanctions, which has led to the Trump Administration imposing 
visa and economic sanctions on nine Tatmadaw military officers 
and two military units for their involvement in extrajudicial 
killings in the Rakhine State.
    While some actions have been taken, it has clearly not been 
enough to stop the violence. Despite many condemnations and 
sanctions from the United States, the international community, 
the Rohingya continues to face discrimination, violence, 
murder, rape, torture, and death from their own government. The 
approach our country and the international community has taken 
to resolve this crisis has failed.
    Part of solving the crisis of this magnitude rests in 
definition, which some have been too cautious to act on. Let's 
be clear: what is happening in Myanmar toward the Rohingya is 
State-sponsored genocide, period. It has been our commitment 
since the Holocaust to resolve and to say ``never again.'' Yet 
the cleansing of the Rohingya in the concentration camps in 
Xinjiang province in China with the Uighurs, the East Turk 
population, it is as if the world has forgotten the words and 
the promises made to stand strong against these types of 
injustices. Therefore, we must consider stronger measures than 
we have before, including the possibility of suspending aid to 
a government that has taken the lives and the livelihoods of an 
entire ethnicity within its borders. American tax dollars 
should not fund any kind of foreign assistance going to regimes 
responsible for disenfranchising over a billion of its own 
people, much less conducting a coordinated campaign of ethnic 
cleansing. The arrival of this pandemic has only worsened the 
conditions facing the Rohingya, as many find themselves in 
either overcrowded refugee camps with little access to medical 
attention and equipment.
    As we move toward developing a reliable vaccine for COVID-
19, the international vaccine organizations like Gavi and CEPI 
must play an active role in helping deliver lifesaving medical 
treatment to the Rohingya, many of whom find themselves without 
a government willing to provide for their wellbeing.
    I look forward to hearing from our witnesses and my fellow 
colleagues on how we can change these goals. And thank you. And 
I apologize; I am on a cell phone, and I cannot read my notes. 
Thank you.
    Mr. Bera. Thank you, Ranking Member Yoho.
    In a moment, I am going to introduce our witnesses and 
recognize them for their statements, but I would like to take 1 
minute to yield a minute to my good friend Mr. Chabot, who has 
been a leader on speaking out on behalf of the Rohingya and 
introduced with Chairman Engel the BURMA Act, which the 
committee and the House passed last year.
    Mr. Chabot.
    Mr. Chabot. Thank you very much, Chairman Bera, and also 
Ranking Member Yoho. And I will be brief.
    We all know the tragic story about what happened here, how, 
beginning in August 2017, the Burmese military carried out a 
systematic, premeditated campaign of murder, rape, and terror 
amounting to genocide against the Rohingya.
    Since then, I have worked with my colleagues on both sides 
of the aisle. And I want to especially thank Eliot Engel and 
also Joe Crowley, who was instrumental in working on this 
during his time in Congress, trying to raise awareness in our 
country and around the globe on this issue and hold the 
perpetrators accountable. The House overwhelmingly voted in 
favor of proclaiming these atrocities a genocide and in 
sanctioning the perpetrators. Yet despite the outrage, not much 
has really changed over the last 3 years.
    The humanitarian situation remains frozen with a million 
Rohingya in refugee camps in Bangladesh while international 
pressure has had little impact on the behavior of the Burmese 
Government or on the Burmese military.
    With this in mind, we must not let the passage of time nor 
fatigue numb our horror at what happened in 2017 and what is 
happening to this day, nor our resolve to achieve a solution. 
So thank you for holding this, and I yield back.
    Mr. Bera. Thank you, Mr. Chabot.
    I will now introduce our witnesses. Our witnesses for 
today's hearing are The Honorable Eric Schwartz, Ms. Wai Wai 
Nu, Ms. Allyson Neville, and Olivia Enos. I would like to thank 
all of our witnesses for being here today.
    The Honorable Eric Schwartz is currently president of 
Refugees International. He previously served as U.S. Assistant 
Secretary of State for Population, Refugees, and Migration from 
2009 to 2011.
    Ms. Wai Wai Nu is the founder and executive director of the 
Women's Peace Network in Myanmar. Nu is currently serving as a 
fellow at the Simon-Skjodt Center for the Prevention of 
Genocide, U.S. Holocaust Memorial Museum. She spent 7 years as 
a political prisoner in Burma.
    Allyson Neville is the associate director for International 
Humanitarian Response Policy and Advocacy at Save the Children, 
where she focuses on education in emergencies and the 
protection of children in conflict, as well as the Rohingya 
response in Afghanistan.
    And, finally, Ms. Olivia Enos is a senior policy analyst in 
the Asian Studies Center at the Heritage Foundation, where she 
focus on human rights and national security challenges in Asia, 
including democracy and government challenges, refugee issues, 
and other challenges.
    I will now recognize each witness for 5 minutes. And, 
without objection, your prepared written statements will be 
made part of record.
    I will first call on The Honorable Eric Schwartz for your 
testimony. Mr. Schwartz.

 STATEMENT OF THE HONORABLE ERIC SCHWARTZ, PRESIDENT, REFUGEES 
                         INTERNATIONAL

    Mr. Schwartz. Thank you, Chairman Bera and members of the 
subcommittee for holding this hearing and for your important 
efforts surrounding Rohingya. I will summarize my written 
remarks submitted for the record.
    August 25th will mark 3 years since the start of the 
expulsion of more than 700,000 Rohingya from Myanmar, also 
known as Burma. Nearly 900,000 are in camps in Bangladesh. 
Hundreds have recently been stranded at sea after being turned 
back from Malaysia and Bangladesh, and many have certainly 
drowned. Some 600,000 Rohingya remain in Burma, facing ongoing 
abuses.
    I am going to address challenges in the refugee camps in 
Bangladesh, ongoing abuses in Burma, and the question of 
genocide and the global humanitarian imperatives around COVID-
19.
    I will begin with the challenges in Bangladesh. While small 
numbers of Rohingya in the camps have tested positive for 
COVID-19, testing is limited and the worst is yet to come. 
Access restrictions and other indirect effects of the pandemic 
have worsened conditions, and we are very worried about COVID-
19's negative impact on gender-based violence in particular.
    Misinformation about COVID-19 is pervasive in the camps and 
compounded by Bangladesh Government restrictions on 
communication. And we remained alarmed by government plans and 
early efforts to move Rohingya to Bhasan Char, an island in the 
Bay of Bengal in light of serious questions about safety and 
voluntariness of such movements. In Rakhine State in Burma, 
conditions remain unacceptable. And it bears mention that 
abuses in Burma are not restricted to the Rohingya, but extend 
to several ethnic minority groups throughout the country.
    I will now turn to the question of genocide and the 
requests of a broad coalition that the State Department declare 
Burma responsible for genocide. This request of course is 
consistent with the December 2018 House Resolution that also 
called attacks on the Rohingya genocide.
    As reflected in the Refugees International statement on 
genocide, the State of Burma is indeed responsible for killing 
thousands of Rohingya among other abuses specified in the 
Genocide Convention with the intent to destroy in whole or in 
part this population. I ask that the Refugees International 
statement on genocide be included in the hearing record.
    A declaration would recognize the crime for what it is and 
promote accountability. It would bring global attention that 
could help prevent further atrocities. It could rally 
international pressure. It would signal solidarity with both 
the Rohingya and with Bangladesh and other countries that are 
hosting Rohingya.
    Finally, I would be remiss if I did not return to the 
broader global response to COVID-19, especially as it 
implicates the Rohingya. In a webinar in which the chairman 
participated, the U.N.'s Emergency Relief Coordinator, Mark 
Lowcock, recently said that COVID-19 could conceivably infect 
over 600 million people in the world's most vulnerable 
countries. Mark estimated that the cost to protecting the most 
vulnerable 10 percent of the world's population from the worst 
effects of COVID-19 was about $90 billion. He added that this 
would represent less than 1 percent, less than 1 percent of the 
amount devoted to COVID-19 stimulus packages by wealthy 
countries of world. A $90 billion figure is reasonable; in 
fact, it may be low. And we and others are urging a $20 billion 
U.S. contribution reflected both in moral imperative and the 
simple fact that this virus knows no borders.
    Let me also emphasize the importance of broad access to 
affordable treatments, access to a vaccine, and our concern 
that governments are pursuing what the U.N. Secretary General 
has expressed concern about: vaccine nationalism.
    To conclude, I urge members to press the Administration to 
continue U.S. leadership in this humanitarian response to 
Bangladesh, to request administration progress reports on 
funding and on critical implementation issues involving the 
government of Bangladesh that are highlighted in my written 
testimony. I urge that you press the Administration to issue a 
finding of genocide.
    And, finally, on the COVID-19 response globally, which 
impacts the Rohingya so dramatically, I hope you will press for 
supplemental assistance of $20 billion, as well as for 
equitable access to treatment and to vaccines.
    Thank you.
    [The prepared statement of Mr. Schwartz follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    Mr. Bera. Thank you, Mr. Schwartz.
    I will now call on Ms. Wai Wai Nu for her testimony.

  STATEMENT OF WAI WAI NU, EXECUTIVE DIRECTOR, WOMEN'S PEACE 
                            NETWORK

    Ms. Nu. Thank you, Chairman Bera, Ranking Member Yoho, and 
members of the subcommittee for the opportunity to update you 
today. I want to thank the U.S. House of Representatives for 
demonstrating a strong commitment to end mass atrocities in 
Myanmar.
    Distinguished members, I was just 10 years old when Myanmar 
military regime put me and my family in prison in 2005. My 
father was a political leader allied with Daw Aung San Suu Kyi 
during the democracy movement. But unlike other politicians, my 
father was targeted because he is Rohingya. My entire adult 
life has been dedicated to fighting this persecution. I knew 
from an early age that we were targeted because of our 
ethnicity and religion. Imagine our excitement and hope when we 
were able to join a country in the beginning of democratic 
transition in 2012 after 7 years of imprisonment. But our hope 
was quickly shattered when Myanmar military ravaged the Rakhine 
State that same year, running villages to the ground, and 
displacing tens of thousands of my people. Many of whom still 
live in destitute camps today.
    In August 2017, the military unleashed a campaign of 
clearance operations, which resulted in mass destruction, 
killing, and expulsions of over 850,000 people to flee across 
the border to Bangladesh. The U.N. Fact-Finding Mission on 
Myanmar and the Holocaust Memorial Museum determined this purge 
to be a genocide.
    The violence--sexual violence primarily against women and 
girls and also men and boys was used as a weapon and left a 
trail of trauma. And that will last generations. Now 3 years 
on, over 1 million Rohingya people living in limbo in squalid 
refugee camps in Bangladesh as you described, barely surviving 
with a few donations items from NGO's. In countries like 
Malaysia, Thailand, India, Rohingya are targeted for hate 
speech, and many live in fear. And still remains too unsafe for 
the Rohingya to return to Myanmar, where over 600,000 Rohingya 
remaining in the country face systemic persecution and living 
under the threat of genocide.
    Dear distinguished members, all of this was preventable. 
This was the failure to address root causes of persecution 
against Rohingya. Similar tactics used against ethnic 
minorities in Myanmar for decades continue today as military 
inflict abuses on civilian in Rakhine, Shan, and Koran States 
while the peace process has been stalled. So far, impunity has 
reigned for much atrocities in Myanmar.
    Despite of the dire situations of the Rohingya, I have been 
deeply inspired by the sheer resilience and the unwavering 
spirit of my people, your leadership and interest in Myanmar is 
critical to success. Here are seven key demands from the 
Rohingya community in Myanmar, Bangladesh, and the diaspora on 
how you can support us. First, my people want to return to our 
homeland with the restoration of full citizenship rights and 
equal rights, and restitution of the damage to our land and 
livelihood. We cannot be relocated to the internment camps or 
segregated Muslim zones to be forced to identify ourselves as 
Bengali via a national verification card.
    Second, I want to thank the U.S. for imposing sanctions on 
Myanmar military officials and ask that you also impose 
financial sanctions on military owned businesses since the 
income generated from these businesses enable the military to 
continue its brutal acts.
    Third, the U.S. Congress must pass the BURMA Act.
    Fourth, the U.S. must support international criminal 
accountability efforts as it is clear that Myanmar lacks both 
the political will and independent judiciary to deliver 
justice.
    Fifth, the Rohingya people still being denied the right to 
vote, despite of our long history of political participation 
and leadership in Myanmar. The U.S. Congress must strongly urge 
the Myanmar Government to hold free, fair, and fully inclusive 
elections on November 2020. Without the participation of 
Rohingyas, these elections cannot pass as a democratic act.
    Sixth, the U.S. Government should call the crimes what they 
are: genocide. Refusing to do so helps the Myanmar government 
in its aim to deny our identity and existence as Rohingya 
people.
    Finally, it is imperative that every government and agency 
consult the Rohingya people in all decisions impacting our 
lives.
    I appreciate you inviting me here today, and you must push 
Myanmar government to work with the Rohingya people to address 
root causes and bring about a long-term solution. I would like 
to thank Chair Bera, Ranking Member Yoho, and members of the 
subcommittee one more time for giving me this opportunity to 
brief you all and I look forward to your questions.
    Thank you.
    [The prepared statement of Ms. Nu follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    Mr. Bera. Thank you, Ms. Nu, for your testimony.
    I will now call on Ms. Allyson Neville for her testimony.

      STATEMENT OF ALLYSON NEVILLE ASSOCIATE DIRECTOR FOR 
 INTERNATIONAL HUMANITARIAN RESPONSE POLICY AND ADVOCACY, SAVE 
                          THE CHILDREN

    Ms. Neville. Chairman Bera, Ranking Member Yoho, and 
distinguished members of the subcommittee, thank you for the 
opportunity to testify on the Rohingya crisis. Since our 
founding more than 100 years ago, Save the Children's work has 
changed the lives of more than 1 billion children in the United 
States and around the world. Specific to the Rohingya crisis, 
we support the needs of children and their families in the 
refugee camps and host community in Bangladesh, as well as in 
the camps for displaced communities in the central part of 
Myanmar's Rakhine State.
    I will be summarizing my written testimony, which speaks in 
more detail of the humanitarian needs and challenges across 
these contexts. First, I want to express appreciation for the 
work of this subcommittee and all those in Congress and the 
executive branch, who have remained committed to addressing the 
needs and rights of the Rohingya. Even as this month marks the 
solemn 3-year anniversary of the atrocities that occurred 
against the Rohingya and other Muslim minorities in Rakhine 
State, new challenges have emerged. These include the COVID-19 
pandemic that has threatened lives in and around the camps in 
Bangladesh, the ongoing conflict in Myanmar's Rakhine and Chin 
States that continues to kill and displace civilians and 
increasing stress factors that have led hundreds, including 
higher percentages of children, to take dangerous journeys by 
sea, seeking refuge.
    I would like to take a few minutes to speak directly to the 
conditions for the tens of thousands of children and 
adolescents we serve in Bangladesh for temporary learning 
centers and child-centered programing. There have been laudable 
efforts to buildup the refugee camps and provide services.
    However, when I was on the ground in December, one of most 
notable things I heard was of the current situation, quote, 
``could be the best things get.'' This already was an 
unacceptable scenario, and with the spread of COVID-19, the 
situation was predictably deteriorated.
    Our job protection staff was already concerned about 
increasing reports of child marriage, child labor, and 
trafficking. Many children still live the with the effects of 
their exposure to rights violations in Myanmar. Psychological 
distress and negative coping mechanisms are increased by 
factors like the inability to access livelihood opportunities, 
limited access to education, and the lack of progress on the 
ground in Myanmar to allow for voluntary and safe returns. It 
is estimated that nearly 70 percent of Rohingya children in the 
camps require access to mental health support.
    Despite the educational services that we and others 
provide, when you walk around the camps, you will see many 
children out of school. This occurs due to a variety of 
factors, including the need to accommodate multiple 2-hour 
classroom shifts due to space constraints and the limited 
availability of the approved learning curriculum. The loss of 
education is most profound for girls. Their attendance drops 
off significantly as they get older and increasing the risks of 
child marriage and adolescent pregnancies. This was the reality 
before the pandemic required a shutdown of 80 percent of the 
services in the camps. Even as we work alongside other 
humanitarian actors to support the needs of refugees, there is 
a crucial opportunity for the United States and the broader 
international community to ensure that the post COVID-19 
environment does not return to the status quo or worse.
    The immense generosity and ongoing engagement of the U.S. 
Government has been important and necessary. We urge the 
continuation of efforts to prioritize the immediate needs and 
long-term interests of the Rohingya. One, the U.S. Government 
should take additional action to hold the perpetrators of 
violence against the Rohingya to account and encourage other 
countries to do so. This should include additional targeted 
sanctions on both individuals complicit in atrocities as well 
as military-owned companies.
    Two, U.S. Government should build on the diplomatic 
engagement with the governments of Myanmar and Bangladesh and 
other regional actors to support improved conditions on the 
ground and to ensure safety and protection for the Rohingya at 
sea. Three, U.S. Government should maintain its generosity in 
supporting humanitarian assistance on both sides of border.
    Related, Congress should fund and invest in the 
international COVID-19 response by providing no less than $20 
billion in the next legislative package to address the 
pandemic.
    Life in a refugee or displaced person's camp should never 
be considered an acceptable long-term solution, especially for 
children. There are approximately 75,000 Rohingya who have been 
born as refugees since 2017 and an estimated 32,000 have been 
born in displacement settings in Rakhine State since 2012. An 
entire generation of Rohingya children risk growing up confined 
in camps.
    The Rohingya want to be able to return home safely, access 
their rights and freedoms, and live in peace. With your help, 
it is our hope that, by this time next year, much will have 
been improved. For the children who deserve a healthy start to 
life, access to education and freedom from violence and harm 
every day matters.
    Thank you, and I look forward to answering your questions.
    [The prepared statement of Ms. Neville follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    Mr. Bera. Thank you, Ms. Neville.
    And now I will recognize Ms. Olivia Enos for her testimony.

 STATEMENT OF OLIVIA ENOS, SENIOR POLICY ANALYST, THE HERITAGE 
                           FOUNDATION

    Ms. Enos. Thank you, Chairman Bera, Ranking Member Yoho, 
thank you for inviting me testify before the subcommittee.
    Rajuma, a young Rohingya woman clutched her baby boy as she 
fled the Burmese military's brutal treatment of her Muslim 
community. It was then that her fragile world shattered. A 
soldier clubbed her on her head while others tore her baby from 
her arms and threw him into the fire. The violence did not stop 
with her child's death. The soldiers then proceeded to gang 
rape Rajuma. Before the day was through, she had seen her 
mother and her three siblings killed. Rajuma is far from the 
only Rohingya scarred by the Burmese military. Countless women 
and girls faced sexual violence, including rape. At least 
10,000 men, women, and children perished at the hands of 
Burmese military during August 2017's clearing operation. And 
now at least 1 million Rohingya remain displaced in the world's 
largest refugee camp in Cox's Bazar, Bangladesh.
    Salt is now being poured on the wounds of their suffering 
as the Rohingya who endured these atrocities are now 
experiencing COVID-19. While, thus far, the rate of COVID-19 
infections is seemingly quite low--62 cases according to the 
United Nations Refugee Agency and only a handful of deaths--
social distancing is a near impossibility, access to testing 
limited, and provision of medical care is few and far between. 
Some have called it a potential tinderbox for an outbreak.
    The present is an opportune moment for Secretary Pompeo to 
declare that the United Nations, the U.S. Holocaust Memorial 
Museum, and PILPG, the group the State Department commissioned 
to do an atrocity report on the Rohingya, and many, many others 
have already said to be true. That Rohingya endured genocide 
and crimes against humanity.
    On August 25th, it will have been 3 years since the 
atrocities took place. The Secretary should consider issuing an 
atrocity determination to commemorate the anniversary and to 
bring justice to Rohingya.
    There are five reasons to put into the record for why the 
U.S. Government should issue an atrocity determination. I will 
cover three now. No. 1, a designation counters the narrative, 
that the U.S. does not care about human rights. Atrocities 
committed against Rohingya are among the most significant human 
rights violations committed during the Trump Presidency. A 
strong U.S. response would telegraph to other countries that 
the U.S. continues to support freedom and human rights. Failure 
to do so has the potential to embolden bad actors who will 
believe that there are little to no negative consequences for 
engaging in human rights violations while maintaining a 
diplomatic relationship with the U.S.
    No. 2, a designation demonstrates a U.S. commitment to 
preventing atrocity. Atrocity determinations transcend 
administrations and ensure that survivors receive the help they 
need, like in the case of ISIS genocide determination during 
the Obama Administration. While the Obama Administration took 
limited follow-on action, the Trump Administration did. Its 
Genocide Recovery and Persecution Response Program, which 
allocated nearly $350 million toward assisting victims of ISIS 
genocide, tangibly alleviated suffering.
    Should the Trump Administration issue a determination of 
its own on the Rohingya, it would demonstrate moral and 
political leadership, and serve as an opportunity for the 
Administration to highlight its burgeoning atrocity prevention 
efforts.
    Three, a designation is likely to increase burden sharing 
among countries. Credit should be given where credit is due. 
U.S. is the top single country donor to Rohingya, giving just 
over $820 million since atrocities took place. Now donor 
fatigue is setting in. This is compounded by the COVID-19 era, 
where country's attentions are drawn inward as they battle 
their own COVID-19 crises.
    Current donations are not even scratching the surface of 
the immense needs. United Nations 2020 Joint Response Plan 
requested an estimated $877 million for Rohingya just for this 
year, a year where the U.S. has so far only supplied an 
additional $59 million. The needs are great, and they cannot be 
met by a single, albeit highly generous, donor country.
    An atrocity determination now may serve as a catalyst for 
other countries to provide aid. I recommend that Congress and 
the executive branch pursue the following: first, make an 
official public legal determination on crimes committed against 
Rohingya; second, evaluate relevant financial tools to craft an 
overarching sanctions policy toward Burma, one that targets 
Burmese military owned enterprises like MEC and MEHL; three, 
press the Bangladeshi Government to lift restrictions on access 
to information inside of the camps; four, grant priority 2 
refugee status to Rohingya refugees; and, five, reevaluate the 
need for aid both in the midst of the COVID-19 crisis, as well 
as in the aftermath of the atrocities.
    An atrocity determination can be issued at any point in 
time. Secretary Pompeo has the authority and discretion to 
issue such a determination at whim. But should he choose not 
to, Congress also has the option to press the Administration to 
do as it did in the case of ISIS genocide, which I am happy to 
address more during Q&A. Perhaps this method could be 
successful again. Issuing a genocide determination now would be 
win for the Administration. The administration should do so now 
before it is too late.
    Thank you.
    [The prepared statement of Ms. Enos follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    Chairman Engel. Thank you, Ms. Enos. I will now recognize 
members for 5 minutes each. And pursuant to House rules, all 
time yielded is for the purposes of questioning our witnesses. 
Because of the virtual format of this hearing, I will recognize 
members by committee seniority, alternating between Democrats 
and Republicans. If you miss your turn, please let our staff 
know, and we will circle back to you. If you seek recognition, 
you must unmute your microphone and address the chair verbally. 
I will now start by recognizing myself.
    Ms. Nu, thank you for your advocacy on behalf the Rohingya 
people and a truly democratic and inclusive Burma. I think it 
is an understatement what started with much promise and 
admiration for Aung San Suu Kyi has led to disappointment in 
recent years. I know this subcommittee, as well as the House in 
a bipartisan way, has expressed that disappointment. Can you 
enlighten us as to what accounts for her failures? And is it 
that she just simply does not care about the Rohingya or 
considers them Burmese, and how we should approach this?
    Ms. Nu. Thank you, Chairman Bera for your questions and the 
opportunity to address you once again.
    Yes, as you said, it is very disheartening to see how 
responses in this crisis before she become the head of 
government and now under her administration. We--the community 
the Rohingya community and all other ethnic minorities in 
Myanmar expected that she is the one who will bring equality 
and justice for all other minorities. Instead, she turns away 
and sides with the perpetrators, the military dictators and 
stands with them in front of the International Court of 
Justice. It is clear that her intention is not to protect the 
country's minorities, but to protect the powers. With that, 
even after the International Court of Justice provisional--the 
orders--the provisional measures orders, there is nothing has 
changed on the ground, the life of the people on the ground, 
and the policies that by the government itself, the State 
policies for the Rohingya population.
    Now she has the power to change the policies, for example, 
removing restrictions of the movement and allowing students to 
go to the universities. Now, since 2012, our students are not 
able to go to the university. In her administration with her 
authority, she can change this, you know, minor changes. And 
her government officials continue using--denying our identity 
as Rohingya and using--referring us as Bengali. At the same 
time, her government is implementing a discriminatory 
citizenship process, which will eventually lead the Rohingya 
people to become noncitizens and lose of all our rights, 
including our birth right to the land and rights protections. I 
think some of the specific acts and policies that have not been 
addressed or continue imposing by her all administration can be 
pushed by your committee and U.S. Government. So, in terms of 
policy, change in policies, implementation, and practical 
changes in the grounds are essential. And we want to see her 
taking leadership to return to--like, to basically make 
necessary arrangements for the return of the refugees and 
restore the full citizenship rights and the equal rights of the 
Rohingya in Myanmar.
    Mr. Bera. Thank you, Ms. Nu. In the short time I have 
remaining, I am obviously putting my doctor hat on and public 
health hat on. We are very worried that, in Cox's Bazar, if 
COVID-19 were to start spreading, that this would be well a 
humanitarian disaster.
    I am also very worried about the secondary and tertiary 
impact this in terms of food and security, starvation and the 
like. Maybe Mr. Schwartz or some other members, if you could 
just give us a sense of how challenging things are right now 
and some policies. I agree if we can get the $20 billion in the 
next supplemental, that would be a good first step. And I think 
that is incredibly important to help support folks. If any of 
the witnesses want to give us life on the ground in Cox's 
Bazar.
    Mr. Schwartz. Well, thank you, Mr. Chairman. I will be very 
brief and say that today, since we have not seen the very worst 
of COVID-19 infections, that, to a great extent, the principal 
challenges that we are confronting, that humanitarians are 
confronting are the indirect impacts of this pandemic. In 
Bangladesh, it has to do with a decrease in the number of 
humanitarians who are in the camps, restrictions on 
communication, difficulties with supply. And worldwide, that 
problem is arising in many different places. The media reported 
some weeks ago on the Sahel. The focus of that report was not 
the direct impact of COVID-19, but rather significant food 
insecurity challenges based on restrictions and access, which 
just underscores the importance not only of a very generous 
COVID-19 supplemental globally but also the need to continue to 
focus on not only the COVID-19 response but the indirect 
impacts of COVID-19.
    Mr. Bera. Thank you, Mr. Schwartz.
    And I realize my time is out. So let me recognize the 
ranking member, Mr. Yoho, for 5 minutes.
    Mr. Yoho. Thank you, Mr. Chairman. And I appreciate all the 
witnesses' testimony.
    What is the key--and I think I am going to ask this of Eric 
Schwartz. Mr. Schwartz, what is the key economic driver of the 
economy in Myanmar?
    Mr. Schwartz. Well, I am not an economist, but I will say 
that I think, at this point, the most effective tool for, you 
know, pressure against the government of Burma would be to 
target military and military-owned enterprises.
    Mr. Yoho. All right. Well, let me ask you this: What is 
their biggest product or export product? And who is their 
largest trading partner? Is it China? And what is that product 
that brings in the most money for their economy or anybody on 
the panel?
    Mr. Schwartz. Right. Please, I would believe that China 
would almost certainly be their major trading partner, but in 
terms of the products, I think I would defer to others.
    Mr. Yoho. Allyson, Ms. Neville, do you know?
    Ms. Neville. I am sorry. That is unfortunately not really 
something we can speak to given our humanitarian------
    Mr. Yoho. Well, let me just go with this because we see 
this over and over again. We see it in China in the Xinjiang 
Province. We see it elsewhere in the world. And we say ``never 
again,'' but yet it happens over and over again. And without 
having a direct did conflict, the best thing I think we can do 
as a Nation is economic pressure. I would assume that China is 
their largest trading partner. But what other nations are 
coming to the table outside of the U.S.? What other developed 
nations? Are we seeing the E.U.? Are we seeing Japan? Are we 
seeing any other country? And then, particularly, since the 
majority of the Rohingya are Muslims and they practice their 
Muslim faith or they try to, what Muslim countries are coming 
to the table to be actively engaged, or is this the U.S. alone? 
Because if we can get these other countries engaged, we can put 
that economic pressure on there and squeeze them there, in 
addition to the sanction that we are doing? Does anybody want 
to community on that.
    Mr. Schwartz. Sure. I would be happy to. I think key 
interlocutors, economic interlocutors for Burma include not 
only China but India, Japan, Indonesia, the E.U. And the 
challenge is to marshal an international effort and there 
really has been an absence of leadership in that effort to 
marshal, you know, a truly international effort. The Muslim 
world has--governments with Muslim majority populations have 
been regularly supportive of declarations against what the 
Burmese military have done, but that has not really translated 
into genuine political and economic pressure.
    Mr. Yoho. Okay. Let me bring this up then: We know in 
January 2020 the U.N. reported genocide going on and called 
their commander in chief and five generals to face charges of 
crimes, but yet the U.N. Security Council has yet to issue such 
a designation. This is just something I am going to say is that 
we as a Nation need to invoke these other nations. And we need 
to have this at the U.N. to where they bring this up and then, 
from that, move that coalition to put that economic pressure on 
anybody that is trading with them. And, again, what we see is 
China is the bad actor. China could come to the table and help 
us resolve so many issues around the world, yet they are on the 
opposite end, fuming and working against us. Until we get 
agreement in countries working in the same direction, this will 
not end.
    And, Allyson Neville, you were saying living in a refugee 
camp should never be normal, that should never be normal. But 
yet we have refugee camps that have been going on for 20-plus, 
30 years because we cannot get together as a world community 
and bring this stuff to an end.
    I do not really have any other comments. But I do know that 
if we do not work with some of these organizations, like Gavi 
and the NGO's, and get treatments and vaccinations for other 
diseases, the comorbidity are going to open up this population 
for the pandemic, and we have got some challenges on our hands. 
And I hope America comes to the table and pleads and brings 
other partners.
    Mr. Chairman, thank you for putting this meeting on. And I 
thank our witnesses. And I yield back.
    Mr. Bera. Thank you to the ranking member. Let me now 
recognize the gentleman from California, Mr. Sherman, for 5 
minutes.
    Mr. Sherman. I think there should be a general recognition 
that we need to appropriate money in the next COVID bill to 
focus worldwide on the problem this is causing. And believe it 
or not, I will commend the Republican Senate bill that has $4 
billion in it to deal with the foreign policy aspects of COVID. 
I know we Democrats in the House have provided for money, but 
we have that not in the COVID bill but in the appropriations 
bills that will not become effective until October 1st at the 
earliest, and we clearly need to respond internationally 
sooner.
    I met with on Aung San Suu Kyi more than once. She had 
become such a hero to all of us who were concerned about human 
rights. And to have her play this role, presiding over and 
apologizing for this genocidal regime, is just disheartening to 
everyone who has put their time and effort into human rights.
    Last year, I had a chance to preside over this 
subcommittee. We had three hearings dealing with the Rohingya 
in part. We had our hearing on Southeast Asian human rights, 
where we focused on Burma, Myanmar; South Asia where we focused 
on the effect on Bangladesh; and, finally, the budget hearings. 
I want to commend Chairman Bera, though, for having a hearing 
entirely focused on the Rohingya. It is clearly deserving of a 
hearing by itself.
    The Rohingya need to go home. They need to go home safely. 
They need to go home with full citizenship rights. Several 
years ago and as recently as last year, I pointed out that 
perhaps the international border would need to be changed. If 
the government of Burma, Myanmar, will not protect the people 
of north Rakhine State, then maybe that State should be part of 
another nation or independent. Now, I do not think a change of 
international borders is anything close to an optimal solution, 
but I will point out to those in the Burmese Government that 
America has favored and facilitated only once this century a 
change in international borders, and that was the creation of 
South Sudan. And we did it because of our abiding efforts to 
prevent genocide. And there was genocide there in South Sudan, 
and there has clearly been a genocide attempted to be 
perpetrated against the Rohingya people.
    We could be looking at a temporary safe zone inside the 
Rakhine State with international U.N. peacekeeping troops, but 
that would just be a first and inadequate step because we need 
the people of Rakhine State to be full citizens of Burma. A 
number of people have pointed out the importance of BURMA Act. 
We passed it through the committee. We need to pass it on the 
floor. And I see on my screen Ms. Wagner, who joined with me 
when I introduced the Safe Return of Rohingyas to Burma Act. 
And this would go further in revoking Burma's GSP preferences. 
I know Mr. Yoho focused on the economic. We may not easily 
control what China does economically, but we certainly have 
control over what we do. And we have given Burma extraordinary 
GSP preferences that we do not provide to a host of other 
countries, and, clearly, that should not go on. And that would 
have an immediate economic effect on Burma. We would not have 
to wait for a determination. It would not be just aimed at one 
or two individuals, but would affect the regime.
    There is a--Mr. Yoho and others have brought up China. 
China has signed 33 major economic agreements with this regime. 
It oppresses its own Uighur Muslims. It has offered cash to 
Rohingya to return to their homes, but without any guarantees 
of safety, they are not going to do it. And now China has its 
eyes on the Rakhine State as a place for a port that would 
support the Chinese economy.
    I would hope that, for the record, our witnesses would tell 
us what we can do to illustrate to the entire Muslim world what 
China is doing not only to the Uighurs but in support of the 
Burmese regime. I will point out that, in contrast, the United 
States gets criticized as somehow being anti-Muslim. Not only 
do we stand up for the Rohingya and the Uighurs, but we took 
military action against Serbia to support the Kosovars and 
Bosnian Muslims.
    How much additional assistance do we need to provide to 
support the Rohingya in addition to the I am told it is as high 
as $660 billion we have provided so far? Do we have a witness, 
perhaps Mr. Schwartz.
    Mr. Schwartz. Yes, let me address three points that you 
have alluded to.
    Mr. Sherman. I have limited time. So perhaps you can 
address the A question.
    Mr. Schwartz. Well, yes. I would say that the United States 
has been a very generous contributor to the humanitarian 
response in Bangladesh. But the global appeal, at last report, 
was funded at far less than 50 percent. So much more can and 
should be done.
    But I do need to comment on your reference to a safe zone. 
As someone who wrote an op-ed in The Washington Post urging 
that any return be accompanied by a U.N. monitoring team, so I 
think the phrase ``safe zone'' makes me nervous, because safe 
zones is a general matter, you know, whether it is been in 
Bosnia or other parts of the world, are not safe. And so I 
think we have to be certain that conditions are right for safe 
and voluntary return with monitoring, but I get very nervous 
when I hear the phrase ``safe zone.''
    Mr. Sherman. Maybe a different term is called for, but 
international monitoring I think would be helpful.
    I will also ask our witnesses to comment on the record 
about the International Criminal Court, which held that Myanmar 
must take steps to prevent further genocidal acts. I want to 
commend The Gambia for bringing the case and focusing on human 
rights so far from The Gambia.
    And I want to pick up where Ms. Wai Wai Nu's comment about 
the elections. I will point out that some 850,000 Afghan 
refugees in 2004 were able to participate in the Afghan 
elections. You have called for Rohingya to be able to 
participate in the Myanmar elections. I know Myanmar 
authorities have detailed records and household lists. And it 
seems that, as a practical matter, the Rohingya could 
participate should the world--if the Myanmar Government refuses 
to allow them to participate, should the world regard this as a 
legitimate election?
    Mr. Bera. Knowing that we have gone over time, if the 
witnesses perhaps could answer some of those questions and 
submit them for the record, that would be great. Thank you.
    With that------
    Mr. Sherman. I would ask that the witness be given just one 
or two sentences.
    Mr. Bera. Okay. I will grant that to Mr. Sherman, if the 
witness want to.
    Mr. Sherman. Just the one, Ms. Wai Wai Nu.
    Mr. Bera. Ms. Nu.
    Ms. Nu. Thank you. Thank you, Congressman Sherman. I think 
you are very, really right. Our populations want to be able to 
have our rights, political rights to vote and to participate in 
the elections. And there are precedents in the past that could 
have happen. As you rightly said, Burmese Government has our 
family registration, a list and cut as well as the voting list 
from the 2010 elections. So it is not difficult if there is a 
will and a plan to arrange this to happen, and it does not take 
much long.
    And second------
    Mr. Sherman. Thank you.
    Mr. Bera. Let me recognize the gentlewoman from Missouri, 
Mrs. Wagner, for 5 minutes.
    Mrs. Wagner. Thank you, Mr. Chairman for hosting this 
hearing on an issue that is extremely bipartisan. And I thank 
our witnesses for their time and for their expertise today.
    My heart breaks for the Rohingya who have suffered 
unimaginable atrocities at the hands of the genocidal Burmese 
regime and now face an incipient coronavirus outbreak in Cox's 
Bazar, Bangladesh. Along with Congressman Levin, who I know is 
joining us today, I co-led an amendment to the State and 
Foreign Operations Appropriations Act that ensures--ensures--
that U.S. funds will not be used to support the forced 
relocation of Rohingya refugees to Bhasan Char, an 
uninhabitable strip of silt off the coast of Bangladesh. So 
Bangladesh has already begun to detain refugees on Bhasan Char 
and has refused to allow U.N. officials access to the island.
    Mr. Schwartz, how can we ensure Rohingya on Bhasan Char are 
receiving the humanitarian aid that they need?
    Mr. Schwartz. Well, I think we have to, Members of 
Congress, and the Administration has to continue to press the 
authorities in Bangladesh, No. 1, not to be moving refugees to 
Bhasan Char until there is an independent assessment of safety 
and voluntariness. And I would urge that Members of Congress 
and the Administration press the government of Bangladesh on 
the issue of access now. And I think the 300 or so who are on 
the island, if they do not--if access is not permitted, then we 
need to press to those people to be returned to camps. It is--
the issue is clear and straightforward. If the government of 
Bangladesh believes, as it says, that is a habitable island, 
the conditions are good for the refugees, then there should be 
no problem with an assessment, an independent assessment of the 
safety of the island prior to moving people to it. It is really 
that simple.
    Mrs. Wagner. Thank you. Thank you, Mr. Schwartz.
    In November 2019, as Congressman Sherman has referenced, 
Gambia filed a genocide case against Burma at the International 
Court of Justice, or ICJ, beginning a very long overdue effort 
to designate the atrocities committed against Rohingya as 
genocide and punish the perpetrators for their crimes. While 
consideration of the case continues, the ICJ has ordered Burma 
to take actions to prevent further acts of genocide.
    Ms. Enos, how well is Burma complying with the ICJ's order 
to actively prevent additional acts of genocide? And how can 
the international community pressure Burma into compliance?
    Ms. Enos. Thank you for that question. You know, I think 
that, to the best of my knowledge, they are not taking steps to 
comply, and, critically, I think what we need to be watching 
for is the fact that the Burmese military has been engaging in 
activities that seem very similar, in fact, to what happened in 
August 2017. They have even used the language of ``clearing 
operations'' in some contexts.
    We know that there have been civilians that have been 
targeted and tortured in Rakhine State, and so we know that the 
Burmese military is continuing to be emboldened to act in these 
ways. So any sort of effort by the civilian government or 
otherwise to say that they are confined are simply not true for 
many Rohingya, as well as other religious minorities inside of 
Burma. And I think this is why we need the U.S. Government to 
call a spade a spade and finally say that this is genocide, 
this is crimes against humanity, echo what the United Nations 
has said, echo what the ICJ has found, echo what even the U.S. 
Holocaust Memorial Museum, I think the U.S. Commission on 
International Religious Freedom, so many bodies, including 
civil society, have been saying that this is genocide and 
crimes against humanity, but thus far, the U.S. refuses to say 
that it is what it is, and------
    Mrs. Wagner. And the fear------
    Ms. Enos [continuing]. The genocide, it is crimes against 
humanity.
    Mrs. Wagner. The fear and uncertainty also caused by the 
pandemic are exacerbating tensions between Rohingya refugees 
and local communities in Bangladesh. Ms. Nu, briefly, how can 
aid groups and partner countries protect Rohingya refugees from 
being scapegoated for the coronavirus outbreak? Ms. Nu?
    Ms. Nu. Thank you. Thank you for your questions. Yes, I 
think aid groups and the partner countries, the first thing 
that we need is that the consultations and talking to the 
people on their needs and their--assessing their situation 
morally, not just ticking box on what they need and what their 
situations are.
    What we have been seeing throughout the last, you know, 7 
years is that many donor organizations, countries, and the 
partner--implement organizations are not necessarily discussing 
with the community, with the refugees, on their needs and on 
their situations.
    For example, the women that I have talked to, women that I 
have been working on, has--from the rape in Burma, she has 
endured physically terribly now. She cannot work because of her 
backbone has broken. So, for her, and during the COVID-19, she 
cannot even go out. And during the lockdowns, there is no--for 
her, it is impossible that she can get any assistance during 
this kind of--during this lockdown and COVID-19.
    So that is why I think the most important thing is to 
consult and to listen to the community as much as possible. 
That is the first thing.
    Second, about, you know, your questions around the ICJ's 
and international criminal accountability, one of the--a few 
things that U.S.--your committee can concretely do is that--the 
first one, action Facebook and Twitter to provide their 
evidences to the Gambia, to the ICJ. That is the most important 
thing.
    And, second, you know, calling--supporting Gambia processes 
and International Court of Justice and International Criminal 
Court processes at the U.N. General Assembly and at the 
Security Council.
    Mrs. Wagner. Thank you. I am way over time, Mr. Chairman, 
my supreme apologies and--but thank you to all our witnesses. 
They have so much to offer, and these virtual things are a 
little clunky to do.
    So I yield back, Mr. Chairman.
    Mr. Bera. Thank you, Mrs. Wagner.
    Let me now recognize the gentle lady from Nevada, Ms. 
Titus.
    Ms. Titus. Thank you, Mr. Chairman. The testimony has been 
quite interesting.
    I was reading recently, from the last issue of Foreign 
Affairs, an article called ``The Myanmar Mirage: Why the West 
Got Burma Wrong.'' It is primarily a review of a book called 
``The Hidden History of Burma,'' and it makes the argument that 
a lot of the vacillating international perceptions of Myanmar, 
from pariah State to positive, possible democratic success 
story, now back to pariah State again, have more to do with our 
hopes than with Burmese realities.
    It goes on to quote a journalist, Peter Popham, who has 
argued that Aung San Suu Kyi's mystique has really originated 
from her absence, and she has been a blank screen on which we 
have painted what we hoped would be her characteristics, her 
demeanor, her approach to politics, not necessarily what her 
background is.
    So I am wondering if you all would address maybe the 
question of how we got it wrong and how we might reassess what 
our policy is going forward based on this notion of Myanmar's 
history, its culture, its structural problems, its racial 
tensions, that maybe we need to reassess our own policy. 
Anybody.
    Ms. Enos. Sure. I will take that first if you do not mind. 
I think that one of the challenges with U.S. policy toward 
Burma has been its inconsistency, as you pointed out, and one 
of the things that happened toward the tail end of the Obama 
Administration is what I would argue was a premature lifting of 
sanctions on the Burmese military at a very critical moment.
    We saw this potential opening toward democracy that Burma 
was taking, and I think we did get our hopes up, and so we 
lifted those sanctions. I think slowly but surely, we have 
started to see the reimplementation of many of those sanctions, 
including the notable sanctions against Senior General Min Aung 
Hlaing and others, as well as against the 33d and 99th Light 
Infantry Divisions, all of which happened under the Trump 
Administration.
    And these are welcome changes, but they do not demonstrate 
a reset of U.S. policy toward Burma, which is something I have 
advocated for in several of my papers at Heritage. And I think 
one way to reset and retask U.S. policy toward Burma would be 
to go ahead and issue an atrocity determination, whether that 
is genocide or crimes against humanity, and then to bring the 
sanctions policy in line with that in such a way that it 
actually targets the military-owned enterprises that are truly 
enabling the Burmese military to step on any possibilities for 
democratic reform that we might see under a civilian 
government.
    Ms. Titus. Thank you. Somebody else might respond to, how 
do we do this without pushing Burma further and further into 
the arms of China? Right now, that relationship is fairly 
tenuous, but they are only too willing to be an economic 
supporter and a friendly ally.
    Mr. Schwartz. Let me comment on that, and I share the view 
that I think there was what I might call a little bit of 
irrational exuberance about where this political situation was 
going and excitement about Aung San Suu Kyi. I think there is 
much to what you have said about, you know, we sort of create 
our own images and perceptions about people treating them as 
foreign leaders, treating them as blank slates, but I do not 
think that altered.
    And, second, I would say the situation is very complex. 
Your comment about China demonstrates that, and so--but it does 
not change the fact that we should be promoting basic decency 
and basic respect for human rights on the part of the 
authorities in Burma. And what that means is a concentrated, 
coherent strategy that recognizes complexity.
    You are not going to get the government of China to support 
a genocide declaration or support a Security Council 
condemnation, but sticks, strong measures by likeminded 
governments have got to be part of an overall strategy, 
including a genocide determination, while, at the same time, 
U.S. diplomats should be engaging Chinese leaders, Indian 
leaders, who are more reluctant to take strong measures, and 
see what we can achieve with respect to movement on these 
issues.
    Two minutes in a hearing is not a forum in which to 
describe what a strategy is. What a strategy requires, American 
leadership, which is not there right now, in terms of a 
coherent, concerted, diplomatic effort that recognizes that, in 
some cases, you have got to be really--you have got to really 
implement and utilize sticks, and, in other cases, with 
governments that are far more reluctant to take strong 
measures, you have got to engage diplomacy. And I think both 
are critical to an effective strategy, if the goal is to 
improve the well-being and the lives of the Rohingya people in 
particular and ethnic minorities throughout Burma.
    Ms. Titus. Thank you.
    Ms. Nu. If I may--can I------
    Mr. Bera. Go ahead briefly, Ms. Nu.
    Ms. Nu. Thank you. I echo both Olivia and Mr. Eric. I would 
like to just want to say that we should go back to the U.S. 
policy and strategy before, you know, so-called democratic 
transition. We need to go back to the strategy during the 
military dictatorship. Since we can say this is the failed 
democracy, the civilian government is not upholding any 
democratic principle and not protecting the minorities and, you 
know, letting the genocide happen--continuing the genocide at 
its own country. So that is my main, like, suggestions for us.
    And, also, the situations in Rakhine State, the suffering 
of Rohingya is not now just the issue of Myanmar. It has become 
international issue. Our people have been suffering in 
Bangladesh, Malaysia, India, and elsewhere. So it cannot be 
addressed unilaterally, and it has to come up with a very 
constructive strategy, and going back to your leadership, you 
know, as multinational, like, responses, I think that is the 
critical thing.
    And also talking about the sanctions and economic economy, 
and I think it is important that not only sanction individuals 
but also targeting the institutions itself, and, you know, I 
would like to request the committee to submit my written 
submissions on our partners on the businesses and military's 
businesses and misconducts in Myanmar. Thank you.
    [The information referred to follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    Ms. Titus. Unfortunately, we have an administration right 
now that does not believe in much cooperation with other 
international partners.
    Just briefly, I was in Myanmar, with part of the House 
Democracy Partnership, and that group works with new 
democracies, and we were optimistic. And we work with USAID and 
NGO's in the countries who make such a difference with that 
soft power or diplomacy. And at some point in the future, I 
would like to hear you all tell me more about your access 
currently under this administration and also under the 
conditions of the COVID virus.
    Thank you, Mr. Chairman.
    Mr. Bera. Thanks, Ms. Titus. Now, let me go ahead and 
recognize the gentle lady from Pennsylvania, Ms. Houlahan.
    Ms. Houlahan. Thank you, Chairman, and thank you to the 
panelists for coming.
    I wanted to followup on a couple of things that my 
colleagues have said.
    First off, Mr. Sherman ought to re-emphasize, and I believe 
Mr. Bera as well, the importance of federally funding our 
foreign affairs in this COVID package that we are working on. I 
think it is essential. I think we are seeing on the Senate side 
at least an appetite for that, and I would like to see on the 
House side an appetite as well to include it in our next 
package. So I just want to associate myself with those remarks.
    I also wanted to followup on something that Mrs. Wagner 
talked about, which has to do with what we are seeing that 
looks a lot like 2017 played over again, and would like to 
understand from possibly Ms. Enos or Ms. Nu, what you are 
seeing now, what you saw in 2017, what can Congress do in terms 
of lessons learned from 2017 until now.
    You touched a little bit on some of those, ticked them off, 
but is there anything further that you can add to that, and can 
we ask you all for the record to submit some ideas of what 
lessons we can learn from the 2017--from 2017 for now? So maybe 
Ms. Enos?
    Ms. Enos. Okay, great. Thank you for your question. Yes, I 
do think that we are starting to see an uptick in violence, and 
honestly there has been consistent targeting from the Burmese 
military of various minority communities, including in Shan and 
Kachin State, but
    [inaudible] In Rakhine State. And happy to submit, you 
know, additional materials that go into great detail about 
that.
    But beyond lessons from, you know, 2017, I think that there 
are also lessons from the election previously because we are 
going to have an election in Burma here in, you know, November 
potentially, and, again, we are seeing Rohingya being excluded 
as being able to vote. And we cannot consider it a free and 
fair election when Rohingya and other minority groups are not 
permitted to vote.
    And so I think that this election actually presents an 
opportunity for U.S. advocacy and U.S. diplomacy to really up 
the ante and put pressure on Burma on both the civilian and the 
military governments to respect the fundamental rights of all 
of its citizens, minority or not, to be able to participate in 
the democratic process. So I think that is maybe something also 
to keep in mind.
    Ms. Houlahan. That would be terrific too. That would be 
terrific too.
    Ms. Nu, do you have anything that we can maybe put into the 
congressional Record in this area?
    Ms. Nu. Yes. Thank you very much. I would like to add some 
more points. And one of the main thing that--the lesson learned 
during the 2017 is that I think the impunity of the 
perpetrators. So the violence against the Rohingya happened 
in--started in 2012, and it goes on in 2013, 2014, 2015, and 
2016. While the attack happened, the U.S. Government lifted the 
sanctions from Myanmar, and that is the worst thing that could 
happen, and that let them larger, you know, five time larger 
atrocities in 2017, and I think that is the lesson learned for 
me.
    We have been advocating and telling the U.S. Government and 
many others, policymakers, around the world, that we need to 
end impunity of the perpetrators, and there were little actions 
or little interest from the U.S. Government, and that is the 
one--the main thing that led to the 2017 now. We cannot wait 
any longer because the more we wait, the longer injustice will 
be and the--the suffering of the communities will prolong, not 
just the Rohingya but also the Rakhine and other ethnic 
communities.
    From--only from January to May, there are about--one of our 
partners, from one of our partner's recall, 410 attacks against 
the civilians happened, more than 300 civilians have been 
killed, and the continuous abuses and violations by the 
security forces, such as extrajudicial killing, arbitrary 
arrests, has been ongoing. And Rohingya are stuck in the middle 
of--caught up in the middle of the war zone without protections 
from any parties in Rakhine State. So we need to end impunity.
    Ms. Houlahan. Thank you.
    That was very helpful. And with whatever is left of my 
time, I am really dubious about the report of only 62 cases of 
COVID. Here in my community, we had a nursing home that had 62 
deaths of COVID, and so it is really hard to imagine that that 
is true. Can anybody give me any insight into whether or not 
this is just an issue of testing, or really is there some sort 
of something else going on there? And, also, are you seeing an 
increase or spike in cases of other kinds of diseases, and, 
finally, is the WHO still even at all able to be helpful, and 
what can you comment if anything about us withdrawing from the 
WHO during all of this situation?
    Ms. Enos. I will just briefly address the issue of 62 
cases. I think that this is, in part, an issue of testing and 
access to testing. It is also a lack of access to medical care. 
As I understand it, there have been limits placed on the number 
of humanitarian agencies that can work during the COVID-19 era, 
in part, to help stop the spread, but also that means that a 
lack of access to medical care, in general, is fading.
    And I think we are seeing this especially affecting women 
and girls, especially those who are pregnant. There have been 
reports of women not being able to get access to maternal 
healthcare for labor, birth, and delivery that are 
extraordinarily concerning. Some of this has to do with some of 
the more male-dominated structures within the camps that are 
limiting and restricting their access.
    But some of it also has to do with misinformation that is 
running rampant in the camps that women are, in fact, the cause 
of COVID-19 in these camps. And I think that the spread of 
misinformation is easily preventable simply by the Bangladeshi 
Government lifting those restrictions on access to internet and 
telecommunications that they put in place. This is a very 
preventable problem and something that I think strong diplomacy 
coming from U.S. State Department and otherwise would be able 
to help to address. So I think that, you know, in part answers 
your question.
    Ms. Houlahan. Thank you. I think my time is well past 
expired. I do not see a clock, but I apologize, and I yield 
back.
    Mr. Bera. No worries. Thank you, Ms. Houlahan.
    Let me recognize the gentleman from Michigan, Mr. Levin, 
for 5 minutes.
    Mr. Levin. Thank you so much, Mr. Chairman, and I want to 
thank you and the ranking member for holding this important 
hearing.
    I had the privilege of traveling to Bangladesh last year 
and to spend 2 full days in and around the Rohingya refugee 
camps and the host communities and rural areas around Cox's 
Bazar.
    And while I by no means at all want to downplay the horror 
of the situation, I want to take a moment to recognize the 
common humanity we share with the Rohingya people. When we sat 
down and talked with mothers, they said they wish they could 
offer us a meal as their guests. When we asked parents what 
brought them joy, they said seeing their children happy.
    Our lives are very different, but at the end of the day, we 
are talking about families like yours and mine who want to have 
a warm and happy home where their kids are safe and can thrive. 
And it breaks my heart that, for those families I met, that 
home and that peace are still very far, far out of reach.
    So I want to talk first about what it would mean for 
Rohingya refugees to return to Burma. I spoke with one man who 
had fled Burma three times in his life. This was his third time 
as a refugee, but he still considered it home and wanted to go 
back and spoke about the smell of his farm animals and the 
water and so on.
    And, in fact, most of the people we spoke with hope to go 
back to Burma. So let's talk about this. Mr. Schwartz, there 
have been actually been multiple spikes in violence against 
Rohingya in Burma over decades, going back to the 1970's, and 
so multiple cases of Rohingya people fleeing to Bangladesh. In 
those past cases, what allowed for Rohingya people to return to 
Burma?
    Mr. Schwartz. Well, not--I mean, what--the situation for 
Rohingya in Rakhine State, in recent memory, has never been 
acceptable. They have been subjected to denial of their right 
to political participation and other abuses, but the truth of 
the matter is, what we saw in 2017 was unprecedented, in terms 
of the concentrated nature of the mass expulsion, the numbers 
of people who moved in such an extraordinarily short period of 
time, hundreds of thousands.
    When I was there in mid-September, which was just about a 
month into the crisis, I think the numbers were several hundred 
thousand already. The fact that an estimated 6-to 7,000 people 
were killed in the context of that expulsion. I mean, the 
virulence of the government's actions and the military's 
actions in that case was of a different order of magnitude 
and------
    Mr. Levin. No question, no question, but what I am trying 
to ask is, is there a history of truly voluntary repatriations 
and folks being able to go back in peace and actually reclaim, 
you know, their possessions, their land, and so forth?
    Mr. Schwartz. There has been movement back and forth, some 
movement back and forth in the context of prior, you know 
violations of the rights of the Rohingya, but I think you are 
testing the limits of my historical knowledge. I think------
    Mr. Levin. Okay. Well, so I guess what I want to say is 
that, I am very concerned that any repatriations would have to 
be, you know, truly voluntary, and I think they are going to 
require a kind of multilateral foreign policy that the ranking 
member expressed eloquently but that I have to say to my 
brother, this administration has no interest in carrying out 
and working with our allies as a team, you know, to deal with 
this, with a situation like the--you know, the Rohingya, this 
horrible genocide that we have watched and that they have had 
to deal with.
    Let me just ask quickly more about Bhasan Char, which I did 
work on a bill with Congresswoman Wagner that she mentioned. I 
am very worried about more people being forced onto this 
island. It is dangerous. I do not see it being a truly safe 
place. You spoke to this, that they should allow independent, 
you know, evaluations, but what more can the U.S. do to stop 
forced relocations to Bhasan Char? What specific steps do you, 
Mr. Schwartz, or others, think we could take--again, if it has 
multilateral, fine--but to prevent this from happening?
    Mr. Schwartz. This is a perfect example of what I would 
call the ``carrot and the stick'' approach. I mean, I think, on 
the one hand, our diplomats, you know, need to be talking very 
sharply to the government of Bangladesh, about the critical 
importance of an independent assessment before people are moved 
to the island.
    At the same time, we are thanking the government of 
Bangladesh for providing refuge to the Rohingya and, at the 
same time, that we are rallying support for additional 
financial assistance for the humanitarian effort in the camps.
    And, in addition, I think part of that is movement on a 
genocide determination because it signals to the government of 
Bangladesh that we recognize that the problem is in Burma and 
that we are--it is an expression of solidarity with a country 
that has expressed deep concerns about the burdens, the 
responsibilities, that they have taken on with respect to the 
Rohingya.
    So I would say it has got to be--as I said before, you 
know, it is a complex issue, and I think we have to talk tough 
Bangladesh, on what they should and should not be doing with 
respect to Bhasan Char, while at the same time, I think we need 
to be continuing to support their efforts to play host, you 
know, to this beleaguered population.
    Mr. Levin. Thank you.
    And, Mr. Chairman, I think my time is well expired. So, 
again, I appreciate your leadership on this issue and that of 
the ranking member, and I yield back.
    Mr. Bera. Thank you, Mr. Levin.
    Let me now recognize the gentleman from Tennessee, Dr. 
Green, and welcome to the subcommittee hearing.
    Mr. Green. Thanks, Chairman.
    I really appreciate it. I am honored to be here, and thanks 
too to the ranking member.
    I also should probably thank Chairman McCaul and Chairman 
Engel for just honoring me and letting me be on the House 
Foreign Affairs Committee.
    International relations have been a passion of mine since I 
took the oath to defend the country in 1982 on the plane at 
West Point, a long time ago, and been enhanced, of course, from 
my trips all over the world and my two deployments to Iraq and 
Afghanistan.
    I believe that foreign policy and foreign affairs right now 
are probably the most challenging ever in the United States' 
history, far more complex than ever before, multiple domains, 
interactions where we connect and interact with our friends and 
foes and allies. And layer over that climate and COVID and all 
these other things, it just makes it harder.
    And Myanmar is an excellent example of that, where we face 
an Asian nation undergoing this humanitarian, human rights 
crisis. But as in the past, when Americans fight for other 
nations and people's human rights, we bring security to our own 
world and, thus, ourselves.
    When we have to stand with these people who are--this is an 
atrocity, as it has been called already in the committee 
meeting, genocide, in some ways. However, we also have to 
consider--and I think it was Representative Titus who mentioned 
this--China continues to grow its malign influence throughout 
the world. Relationships in that region are clearly have to be 
considered and how it empowers their actions.
    As a new member today, I just have one question, and I will 
not take nearly all of my time. And let me also say, I did have 
to step out. So I may be asking a question that has already 
been asked. If that is the case, then just move on, and I will 
get it from the transcript.
    But, Ms. Enos, I believe there was an international court 
ruling earlier this year, and I wondered if that court ruling 
has made any difference, and if so, you know, in what way, and 
what else can the courts do here to help us?
    Ms. Enos. Thank you for that question. We did briefly touch 
on it, but I am happy to address it in more depth. So I think 
the case that the Gambia brought at the International Court of 
Justice against Burma was a significant one, and not only did 
it raise the profile of issue of genocide and the atrocities 
that Rohingya face, but I think it also made it so that there 
was a greater desire for international pressure, and it put 
Aung San Suu Kyi, in fact, on the spot, where she was actually 
defending the Burmese military and the atrocities that they 
committed.
    And so I think it revealed that there is a much deeper need 
for reform inside of Burma, for political reform in general, 
that recognizes the fundamental rights of all individuals, 
minorities, or otherwise, inside of Burma. And so I think this 
is a very important case indeed, but I think that there is even 
a further need for the U.S. Government to just go ahead and 
issue that atrocity determination because I think that we have 
seen other international bodies, in fact, pursuing forms of 
accountability.
    But the U.S. decision not to call it genocide, not to call 
it crimes against humanity, I think, has really hampered 
international aid efforts, and I think if you were to have such 
a determination, you have the potential to really galvanize 
much needed aid and assistance during a time when needs are 
ever increasing with COVID-19.
    And I would just add, very briefly, that any sort of 
atrocity determination that is issued does not require any sort 
of new case before the ICJ or the ICC. It actually does not 
have any sort of legal requirements to pursue international 
justice, but I do think that the Administration would be wise 
to pursue alternative legal and judicial mechanisms for holding 
the Burmese military accountable in addition to targeting and 
levying the much needed sanctions, you know, and continuing 
that sanctions pressure against the Burmese military, 
especially against Burmese, military-owned enterprises.
    Mr. Green. Thank you. Did I produce your name correctly, by 
the way?
    Ms. Enos. That is right. Olivia Enos, yes.
    Mr. Green. Okay. I am sorry if I got it wrong.
    Thank you, Mr. Chairman. I yield.
    Mr. Bera. Thank you, Dr. Green.
    And thank you to the Members for their questions and to the 
witnesses for their responses.
    With member questions now concluded, I am going to 
recognize myself for some closing comments and then also 
recognize the ranking member for closing comments, and then 
give our witnesses an opportunity, maybe 30 seconds or a minute 
if there are any closing remarks that they would like to make.
    Again, you know, what we discussed today really highlights 
the urgency and the importance of Congress, along with the 
Administration, taking actions. And just as a number of members 
highlighted, we had hopes of the burgeoning democracy, we had 
hopes with Aung San Suu Kyi that Burma might move in the right 
direction. But as we realized, you know, what the actions taken 
in 2017 and the continued actions of the military government 
and the lack of response from Aung San Suu Kyi, we have to now 
step up and reset the clock and, you know, go back to, you 
know, some of the sanctions and efforts that were placed.
    And as multiple members, as well as the witnesses also 
suggested, that this is something that would be much stronger 
if we do it in a multilateral way, using the institutions and 
organizations that are available to us, including the United 
Nations. You know, the urgency is now because each day we wait, 
you know, is continued suffering. Each day we wait allows the 
government to continue to get away with these atrocities and, 
you know, perpetrate additional atrocities.
    You know, it is not just limited to what we are seeing with 
the Rohingya. We are seeing these atrocities throughout the 
world. And, you know, the urgency of now in the midst of this 
pandemic, knowing that we have to deal with the pandemic but 
the real worry of secondary and tertiary impacts of, you know, 
massive starvation, food insecurity, the other infectious 
diseases that will be emerging because of the focus on the 
pandemic, all of these are in urgent need of a global response 
with wealthier nations coming together to help those that are 
less fortunate.
    And the important first step--and, again, a number of the 
witnesses touched on it--is, as we do negotiate this next 
COVID-19 bill, we do need to have global health funding in 
there, and, you know, we need to keep that in there because 
there is an urgency of now.
    I appreciate the generosity of the appropriations bill and 
the resources that were in that appropriations bill, but as 
Congressman Sherman pointed out, you know, that is not coming 
until October and perhaps even later than that.
    So, with that, you know, let me recognize the ranking 
member, Mr. Yoho, for any closing comments.
    Mr. Yoho. Ami, I really appreciate what you are doing as 
chairmanship. Again, I think you are doing just a fantastic 
job. I appreciate everybody participating, especially our 
witnesses.
    But I have got to make a few comments here because I saw 
this administration being attacked and not doing enough, 
dropping the ball on this. But we have had two witnesses talk 
about, you know, under President Obama, the sanctions got 
released. Hillary Clinton, as Secretary of State, was bragging 
about the democracy she helped form in Burma when it was a 
shell game, we find out now.
    And these atrocities were going on way before this, and 
they continued all the way through this, but the work that 
happened in the State Department allowed for the sanctions to 
be released. And so these attacks are tawdry. I mean, they are 
just cheap shots that aren't going to solve any problems, and I 
really do not appreciate this.
    If we do not come together, like we did with the BUILD Act 
that created the DFC in this administration, I would encourage 
my colleagues that do not think this administration is doing 
enough, look at what the USAID has done, look at what the DFC 
has done, you know, getting ventilators and equipment out 
around the world.
    There has been over $6 billion in DFC alone to fight the 
pandemic--$3 billion was, I think, directly from the U.S. 
taxpayers, and they brought in $3 billion from outside 
organizations.
    So, if you want to focus on politics, that is great. This 
is not the place to do it. We need to come together with 
policies that we can pass in a bipartisan manner that we can 
get and work through the Senate, so that we can get these 
policies enacted so that we can bring this genocide, which is 
ultimately what this hearing is about, to an end, and we can 
only do that if we are working bipartisanly together.
    Mr. Chairman, thank you for what you do, and again, I 
appreciate our witnesses.
    Mr. Bera. Since I see Congressman Sherman still on--Brad, 
would you like to make any closing comments or------
    Mr. Sherman. I just want to thank you for having this 
hearing and focusing our attention on the Rohingya, and that 
is--and for doing an outstanding job with the subcommittee.
    Mr. Bera. Great. Thank you, Mr. Sherman.
    I will give the witnesses an opportunity to make brief 
closing comments, and let's go in reverse order, and we will 
start with Ms. Neville.
    Ms. Neville. Thank you, Chairman.
    Thank you, Ranking Member. I just want to close by saying a 
couple of things. One, there is this immediate issue now with 
needing to address the COVID-19 pandemic. I really appreciate 
everyone who has highlighted those needs. I would be happy to 
followup on some questions for the record if we can talk a 
little bit more about what we have been seeing on the ground.
    But a couple of things. Following on from Mr. Schwartz, I 
would say there is an absolute need to appreciate everything 
that the government of Bangladesh has done welcoming, you know, 
what amounts to nearly 1 million refugees into their country, 
while at same time, there certainly continue to be challenges. 
There is always going to be challenges in any humanitarian 
context, but a few things like, sort of, restrictions on mobile 
access, internet access, which--Chairman Bera, I know you have 
weighed in on as well--those things affect two different areas. 
One is just access to information and being able to combat 
misinformation about the virus and which is incredibly, 
incredibly important given, you know, the need for limited 
access in the camps to avoid further spreading the virus to the 
Rohingya refugees.
    And then second--Chairman Bera, you also highlighted this 
as well--is just the need--the ways in which mobile data access 
would actually help humanitarian programming, that needs to be 
remote and just--at this point in time. So not having the 
ability to carry things out via mobile and internet really does 
create a lot of challenges for us as we are responding.
    And I just want to really make sure we connect the 
situation in Bangladesh, these refugees, because as we have 
been highlighting, this is not an ideal long-term solution by 
any stretch of the imagination.
    So truly the only real solution is for the Rohingya to be 
able to return home, which is what they want to do, but the 
conditions have to exist for them to be able to do so. So these 
two countries and the situations on the ground in these two 
countries are intimately tied together. I mean, we really do 
need to be putting emphasis on what is happening on the ground.
    And there are opportunities, especially in central Rakhine 
where, you know, we do a lot of programming. There are so many 
opportunities to make progress toward security, toward, you 
know, improving rights and other conditions for the Rohingya, 
and I think that is a place where we also need to have a great 
deal of emphasis.
    So thank you, I really appreciate you having this hearing. 
I am happy to answer further questions.
    Mr. Bera. Great. Thanks, Ms. Neville.
    Let me recognize Ms. Enos.
    Ms. Enos. Thank you. I will be brief. I think there is no 
greater moment than the present to make a decision to issue an 
atrocity determination. This is something that Secretary Pompeo 
can do at any moment in time, and Congress can certainly call 
on him and press on the Administration to go ahead and issue 
that determination.
    I think, at a moment in time when the needs are being 
amplified and deepened even more during COVID-19, this is a 
great time for Congress to up the ante and put pressure in 
order to have this happen. It would also be a great time for 
the Administration to just go ahead and issue that 
determination, whether that is genocide or crimes against 
humanity or both.
    So that is my, you know, sort of spiel, but thank you so 
much for the opportunity to be able to come here and to speak 
to you all.
    Mr. Bera. Thank you, Ms. Enos.
    Ms. Nu.
    Ms. Nu. Thank you, Chair. First of all, I would like to say 
my gratitude and thanks for your consistent bipartisan support 
on Burma and, you know, really supporting Burma human rights 
and democracy.
    And now I would like to remind everyone, and ourselves, 
that we are now here dealing with the genocide, crimes against 
humanity, and war crimes--international crimes. We need your 
leadership more than ever.
    When the first crisis happened in 1978, the first refugee 
crisis, the late Senator Edward Kennedy took leadership and 
facilitated the return of the refugees. But then the 
international community, and the world, has failed to address 
root causes. Now we are seeing recurrence and repeating the 
crimes again and again up to where we are now, you know, 
dealing with the genocide.
    So, therefore, I would like to say we need your leadership 
more than ever at this point, and you can do a couple of 
things. First, we need to end impunity. You can take 
leadership--ask the U.S. Government to take leadership at the 
Security Council to call for the meeting on Burma and to issue 
the resolutions on ending impunity, supporting International 
Court of Justice or International Criminal Court, or creating 
even ad hoc international tribunals to hold all the 
perpetrators accountable and bring in justice for the Rohingya.
    And, second, the United States really need a coherent and 
consistent and constructive strategy to address the overall 
bigger picture of Burma democracy and human rights and 
protecting the Rohingyas rights.
    And assessing the funding and donations, everything, the 
effectiveness of those are essential and key.
    And I would like to say, thank you again for giving me this 
opportunity to address you today.
    Mr. Bera. Thank you.
    And Mr. Schwartz.
    Mr. Schwartz. I thank members of the subcommittee for 
holding this important meeting and for your commitment on this 
issue. I would just ask that Members of Congress and all of us, 
do not make assumptions about so-called lost causes. When I 
joined the staff of the subcommittee that you now chair, the 
Subcommittee on Asian and Pacific Affairs, in April 1989, the 
idea that a Latvia, a Estonia, a Lithuania, would ever have its 
freedom was unimaginable.
    When Indonesian troops invaded East Timor in the mid-
1970's, the idea that Timor would ever be an independent 
country was also almost unimaginable. And what sustained that 
flicker of hope and the potential for the human rights and 
freedom was a willingness of some governments of the world and 
nongovernmental organizations and activists to sustain a degree 
of illegitimacy for what governments--what governments that had 
violated human rights had done. And I just ask that, when you 
think about the Rohingya as a potential lost cause, you think 
about those historical examples.
    And for us, at this point, I think, a single--a singular 
effort, you know, to have the Department of State, the 
Secretary of State, recognize these crimes as genocide, would 
help to sustain that degree of illegitimacy for what that 
government has done.
    And, you know, we are--we heard from Refugees 
International. And 80 nongovernmental organizations--more than 
80 nongovernmental organizations, legal experts, human rights 
experts, thousands of individuals have engaged in a campaign to 
encourage the Secretary of State to make that determination, to 
make that designation, and I would just ask that Members of 
Congress join us in that effort because I think it is very 
important and will indeed--could indeed make a difference.
    Mr. Bera. Thank you, Mr. Schwartz.
    And I want to thank all of our witnesses for all the work 
that you do and the advocacy that you do on behalf of people 
around the world that may not have that ability to advocate for 
the humanity.
    I also want to thank the members who participated in this 
hearing, as well as thank the ranking member for his 
partnership here.
    With that, this hearing is adjourned.
    [Whereupon, at 3:48 p.m., the subcommittee was adjourned.]

                                APPENDIX
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

                        STATEMENT FOR THE RECORD
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

                                 [all]
</pre></body></html>
